                                                                    Issue Date
                                                                             March 9, 2007
                                                                    Audit Report Number
                                                                             2007-AT-1004




  TO:         Michael A. Williams, Director, Office of Public Housing,
               Greensboro, North Carolina, 4FPH


  FROM:
              James D. McKay
              Regional Inspector General for Audit, 4AGA


  SUBJECT:    The Wilmington Housing Authority, Wilmington, North Carolina,
              Needs to Improve Internal Controls over Its Programs

                                     HIGHLIGHTS

   What We Audited and Why

              As part of the U.S. Department of Housing and Urban Development (HUD),
              Office of the Inspector General’s (OIG) strategic plan, we audited the Wilmington
              Housing Authority (Authority) located in Wilmington, North Carolina. Our audit
              objective was to determine whether the Authority inappropriately used federal
              funds to support other programs or entities in violation of requirements.

   What We Found


              Authority management did not implement adequate internal controls to ensure that
              program funds were used only for eligible program activities or that costs were
              properly allocated and supported. Further, the Authority did not have policies
              governing employee use of Authority vehicles. As a result, in violation of its annual
              contributions contract (contract) with HUD, the Authority inappropriately used
              $744,916 in operating subsidies to pay expenses of other federal and nonfederal
              programs. In addition, the Authority could not support that it appropriately spent
              more than $880,000 in accordance with requirements. Further, it did not follow


Table of Contents
              Internal Revenue Service requirements to determine and report the value of fringe
              benefits received by employees from use of employer-provided vehicles.

   What We Recommend


              Our recommendations include requiring the Authority to (1) repay ineligible costs
              of $744,916 to its low-income public housing reserve account; (2) provide support
              for more than $880,000 of costs; (3) develop and implement procedures to ensure
              that program expenditures are eligible and properly supported in accordance with
              requirements, thereby putting an estimated $563,908 to better use; and (4)
              develop and implement policies and procedures governing employee use of
              Authority-owned vehicles.

              For each recommendation without a management decision, please respond and
              provide status reports in accordance with HUD Handbook 2000.06, REV-3.
              Please furnish us copies of any correspondence or directives issued because of the
              audit.

   Auditee’s Response


              We discussed the findings with the Authority and HUD officials during the audit.
              We provided a copy of the draft report to Authority officials on January 30, 2007,
              for their comments and discussed the report with the officials at the exit
              conference on February 20, 2007. The Authority provided its written comments
              to our draft report on February 23, 2007.

              The Authority generally disagreed with finding 1 and the resulting
              recommendations, but substantially agreed with the remaining findings and
              recommendations. The complete text of the auditee’s response, along with our
              evaluation of that response, can be found in appendix B of this report.
              Attachments to the Authority’s comments were too voluminous to include in the
              report, but are available for review upon request.




Table of Contents

                                               2
                            TABLE OF CONTENTS


Background and Objectives                                                        4

Results of Audit
      Finding 1: The Authority Inappropriately Used More Than $215,000 in        5
                 Operating Subsidies for Other Programs
      Finding 2: The Authority Did Not Properly Allocate Costs                   9
      Finding 3: The Authority Could Not Support Its Use of More Than $239,000
                 in Turnkey III Funds                                            13
      Finding 4: The Authority Did Not Comply with Internal Revenue Service      15
                 Requirements

Scope and Methodology                                                            17

Internal Controls                                                                18

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             20
   B. Auditee Comments and OIG’s Evaluation                                      22




                                             3
                      BACKGROUND AND OBJECTIVES

 The Housing Authority of the City of Wilmington, North Carolina (Authority), was incorporated
 December 9, 1940, pursuant to the North Carolina Housing Authorities Law. The Authority’s
 primary objective is to provide decent, safe, and sanitary housing for eligible families in a
 manner that promotes serviceability, economy, efficiency, and stability of the projects and the
 economic and social well-being of the tenants. The Authority administers 1,163 units funded
 under the public housing program and more than 1,700 housing choice vouchers. It also
 administers Public Housing Capital Fund grants and receives funds from homeowners pursuant
 to the Homeownership Opportunity Program for Low-Income Families (Turnkey III) program.

 A nine-member board of commissioners appointed by the mayor of Wilmington governs the
 Authority.

 Our audit objective was to determine whether the Authority inappropriately used federal funds to
 support other programs or entities in violation of requirements.




Table of Contents

                                                4
                                RESULTS OF AUDIT

Finding 1: The Authority Inappropriately Used More Than $215,000 in
           Operating Subsidies for Other Programs
In violation of its annual contributions contract (contract) with the U.S. Department of Housing
and Urban Development (HUD), the Authority inappropriately advanced more than $215,000 in
operating subsidies to pay expenses for programs and entities that were not under its contract
with HUD. It also cannot ensure that funds subject to a contract or other agreement with HUD
were not used to pay more than $500,000 of unsupported costs. This occurred because Authority
management did not implement adequate internal controls to ensure that program funds were
used only for eligible program activities. As a result, the Authority did not have more than
$215,000 available to operate its public housing program.



  The Authority Used Operating
  Subsidies to Pay Nonprogram
  Expenses

              Part A, section 9(C), of the Authority’s contract with HUD allows the Authority
              to use general fund cash only for (1) the payment of the costs of development and
              operation of projects under contract with HUD, (2) the purchase of investment
              securities approved by HUD, and (3) such other purposes as may be specifically
              approved by HUD. Program funds are not fungible, and withdrawals cannot be
              made for a specific program in excess of the funds available on deposit for that
              program.

              The Authority did not implement adequate controls over disbursements to ensure
              that it complied with the contract requirements. As a result, it inappropriately
              advanced operating subsidies to pay expenses for programs and entities that were
              not under its contract with HUD. While the programs periodically made
              reimbursements, the advances were never fully repaid during our review period,
              and no funds were repaid to a public housing reserve account. According to the
              Authority’s general ledger, at March 31, 2006, the various programs and entities
              owed public housing $215,737 for the ineligible disbursements. In its response to
              our draft report, the Authority advised us that the balances included accrued
              expenses, which were subsequently paid on April 5, 2006. While the Authority
              did not agree with all of the amounts that we stated are owed in the following
              chart, it substantially agreed with the recommendations. See Appendix B for
              further details.




Table of Contents
                                               5
                                         Amounts owed as of March 31, 2006
                                                                Amount      Amount
                                                               owed by      owed by
                                    Program/entity              federal    nonfederal
                                                               program      program
                      HOPE VI demolition grant-Taylor Homes    $ 8,930
                      HOPE VI development grant-Jervay Place      24,860
                      Public Housing Capital Fund 2003-2005       26,387
                      Section 8 program                           46,266
                      Glover Apartments                                      $ 16,265
                      Housing and Economic Opportunities, Inc.  _______         93,021
                       Total                                            $    $ 109,286
                                                                106,443 1

      The Authority Paid Costs in
      Excess of Amounts on Deposit
      for Some Programs


                     Before April 1, 2006, the Authority deposited its operating subsidies into its
                     low-income public housing general fund and maintained separate bank accounts
                     for all of its programs. Beginning April 1, 2006, the Authority pooled funds from
                     all of its programs/entities into a central account. At that time, the Authority
                     reclassified the $215,737 as amounts owed to the central account, and began
                     paying all expenses from the central account. The Authority’s contract with HUD
                     allows the Authority to pool funds; however, it cannot withdraw funds for any
                     project in excess of the amount then on deposit for the specific project. 2

                     We found that, in violation of its contract, from April 1, 2006, to September 30,
                     2006, the Authority paid $509,206 from the central account for expenses of
                     programs in excess of the amounts those programs had on deposit. Funds were
                     deposited into the central account from public housing operating subsidies, public
                     housing rent receipts, as well as other programs. We were unable to determine
                     the amount of public housing funds that may have been used to pay expenses of
                     programs that did not have adequate funds on deposit. However, given the
                     Authority’s historical use of operating subsidies to fund other programs, we
                     question whether the Authority used operating subsidies or other funds subject to
                     a contract or agreement with HUD to pay the $509,206 of excess costs.




  1
      We excluded $8 owed by the Authority’s Youthbuild grant.
  2
      Annual Contributions Contract, part A, section 10(A).


Table of Contents
                                                          6
             We are recommending the Authority provide HUD a reconciliation of the funds
             used to pay the $509,206 and repay any amounts representing inappropriate use of
             federal funds. Also, since the Authority has historically used operating subsidies
             to pay expenses of programs and entities not under contract with HUD, and
             continues to have inadequate controls over its cash management, we are
             recommending that the Authority exclude all public housing funds from its central
             account and implement adequate controls over the use of those funds.

             In its response to the draft report, the Authority stated that the amount in excess of
             the amounts programs had on deposit was $459,135 rather than $509,206. It also
             stated that it had sufficient unrestricted cash to cover the deficit balances and had
             taken measures to resolve some of the deficit. The Authority did not provide any
             evidence supporting its calculation of $459,135, or any evidence that public
             housing funds were not used to pay expenses of deficient programs.


   Recommendations


             We recommend that the director of the Office of Public Housing require the
             Authority to

             1A.     Develop and implement procedures which ensure that program funds are
                     used only for eligible program activities.

             1B.     Repay $109,286, or the current balance owed, to the low-income public
                     housing reserve account representing amounts owed by nonfederal
                     programs.

             1C.     Repay $46,266 to the low-income public housing reserve account from its
                     Section 8 administrative reserve account.

             1D.     Repay $26,387, or the current balance owed, to the low-income public
                     housing reserve account from its Public Housing Capital Fund program.
                     Funds owed for any grants that are closed must be repaid from nonfederal
                     funds. For any grants for which funds were not obligated within two years
                     and spent within an additional two years, repayment should be made to
                     HUD.

             1E.     Repay $24,860, or the current balance owed, to the low-income public
                     housing reserve account from its HOPE VI development grant-Jervay
                     Place, or from nonfederal funds.

             1F.     Repay $8,930, or the current balance owed, to the low-income public
                     housing reserve account from its HOPE VI demolition grant-Taylor
                     Homes, or from nonfederal funds.


Table of Contents
                                               7
            1G.     Reconcile the source and provide support for funds used to pay $509,206
                    of excess costs and repay any amounts determined to be ineligible or
                    unsupported.

            1H.     Exclude all public housing funds from its central account until such time
                    as the director is assured that the Authority has adequate internal controls
                    over its cash disbursements.




Table of Contents
                                              8
 Finding 2: The Authority Did Not Properly Allocate Costs
 The Authority did not properly allocate indirect costs and could not properly support some
 allocations of salary and benefit costs as required by Office of Management and Budget Circular
 A-87. This occurred because Authority management did not implement adequate internal
 controls to ensure that it properly allocated or supported indirect costs. It did not have a cost
 allocation plan in place until March 15, 2005, and did not fully implement the plan until April 1,
 2006. In addition, the cost allocation plan was insufficient because it did not require personnel
 activity reports or equivalent documentation to support salary and benefit costs. As a result, the
 Authority paid $529,187 from its operating subsidies for ineligible salaries and other indirect
 costs and could not support another $138,963 of indirect costs allocated to its Section 8 and
 Public Housing Capital Fund programs.



     The Authority Did Not Properly
     Allocate Costs

                    In response to the independent public accountant’s report for the Authority’s
                    fiscal year ending March 31, 2004, the Authority’s board approved a cost
                    allocation plan on March 15, 2005. However, rather than fully implementing the
                    plan when it was approved, the Authority’s executive director decided to partially
                    implement the plan. Beginning October 1, 2005, the Authority allocated salary
                    costs but continued to pay other indirect costs primarily from operating subsidies.

                    Federal regulations at 24 CFR [Code of Federal Regulations] 85.22(b) require the
                    Authority to follow Office of Management and Budget Circular A-87, “Cost
                    Principles for State, Local, and Indian Tribal Governments,” which states that
                    such governments shall establish principles to provide that federal awards bear
                    their share of costs. 3 It further provides that to be allowable under federal awards,
                    costs must be necessary and reasonable for proper and efficient performance and
                    administration of federal awards and be allocable to federal awards.

                    According to the Authority’s cost allocation plan, indirect costs, such as salary
                    and benefit costs of the executive director, management staff, finance department
                    staff, and other centralized staff, would be allocated based on the direct labor
                    method. To determine the percentages of indirect costs to be allocated to each
                    program, the Authority calculated each program’s direct costs as a percentage of
                    the Authority’s total direct costs. The resulting percentages were to be used to
                    allocate indirect costs to each program. For example, the Authority determined
                    that the direct costs for the public housing program were 49 percent of the total
                    Authority costs. Thus, 49 percent of the indirect costs should be allocated to the
                    public housing program. Indirect costs were divided among other programs as
                    follows: Section 8 program - 19 percent, HOPE VI demolition grant - 10 percent,
 3
     Office of Management and Budget Circular A-87, attachment A, paragraph A1.


Table of Contents                                        9
                   Housing and Economic Opportunities, Inc. - 7 percent, Public Housing Capital
                   Fund program - 7 percent, HOPE VI revitalization grant - 6 percent, and Glover
                   Plaza, Inc. - 2 percent 4 . The Authority should have allocated all indirect costs
                   beginning April 1, 2005, using these percentages.

                   From April 1, 2005, to March 31, 2006, the Authority did not allocate costs in
                   accordance with its plan. Rather, it paid the indirect costs primarily from its
                   operating subsidies. Authority officials stated that the plan was being
                   implemented over a one-year period. Until the plan was fully implemented on
                   April 1, 2006, the Authority based the allocations on each program’s available
                   funds. Since the public housing program had the most available funds, the
                   Authority paid 82.4 percent of the indirect costs from operating subsidies for the
                   period April 1, 2005, to March 31, 2006. The total indirect cost for the period
                   was $1,584,189, of which the public housing program should have paid 49
                   percent, or $776,434. However, the program paid $1,305,623. The difference of
                   $529,189 is not an eligible program cost in accordance with the Authority’s
                   contract with HUD. 5 The following chart shows the amounts paid by each
                   program, the allocable indirect cost amounts that should have been paid, and the
                   differences.

                                                             Amount            Allocable
                              Program                          paid          indirect costs 6        Difference
                    Public housing                          $ 1,305,623           $ 776,434            $ 529,189
                    Section 8 program                            97,077             306,614              -209,537
                    HOPE VI demolition grant                     38,106             156,607              -118,501
                    HOPE VI revitalization grant                  8,183               93,964              -85,781
                    Housing and Economic                         48,743             109,624               -60,881
                    Opportunities, Inc.
                    Public Housing Capital Fund
                    program                                      79,890               109,624             -29,735
                    Glover Plaza, Inc.                            6,569                31,321             -24,752
                     Total                                  $ 1,584,189           $ 1,584,189           $      07




 4
   Indirect costs of $18,124 for the Authority’s newsletter are allocated equally between the public housing and
    Section 8 programs rather than the stated percentages.
 5
   Annual contributions contract, part A, section 9(C).
 6
   Adjusted for the allocation of $18,124 between only the public housing and Section 8 programs.
 7
   Differences in the total amount are due to rounding of individual amounts.

Table of Contents                                         10
    The Authority Did Not Support
    Allocated Costs


                   Office of Management and Budget Circular A-87 requires an allocation of salary
                   supported by documentation, such as activity reports or equivalent
                   documentation. 8 The documentation must reflect an after-the-fact distribution of
                   the actual activity of each employee, account for the total activity, be prepared at
                   least monthly, and be signed by the employee. Allocation percentages based on
                   estimates determined before the services are performed do not qualify as support.
                   Estimated percentages may be used for budgeting, but adjustments based on
                   actual percentages must be made at least quarterly.

                   While the Authority began allocating salaries on October 1, 2005, its policies and
                   procedures did not require personnel activity reports to support salary and benefit
                   allocations or quarterly adjustments based on actual percentages. Thus, no
                   personnel activity reports were prepared, and the Authority had not performed any
                   analyses of the existing cost allocation percentages to determine their accuracy.

                   Because the Authority is in the process of implementing project-based asset
                   management accounting, HUD permits it to use its management fees to pay
                   salaries and benefits. The total budgeted for salaries and benefits for the period
                   April 1 through September 30, 2006, was $625,960. For the period, 65.3 percent
                   of the funds collected to pay indirect costs were from public housing management
                   fees. Of the remaining 34.7 percent, or $217,208, 11.2 percent, or $70,107 was
                   from the Section 8 program, and 11 percent, or $68,856, was from the Public
                   Housing Capital Fund program. The remaining $78,245 was from nonfederal
                   programs. Because the Authority did not require staff to complete activity reports
                   and did not adjust the amounts to actual percentages, it cannot support its
                   allocation of $138,963 in salary and benefit costs to its Section 8 and Public
                   Housing Capital Fund programs ($70,107 and $68,856, respectively).

    Recommendations



                   We recommend that the director of the Office of Public Housing require the
                   Authority to

                   2A.      Develop and implement procedures to ensure that salary and benefit cost
                            allocations are properly supported.



8
    Office of Management and Budget Circular A-87, attachment B, section h (4).



Table of Contents                                        11
           2B.      Repay $209,537 to the low-income public housing reserve account from
                    its Section 8 administrative reserve account.

           2C.      Repay $118,501 to the low-income public housing reserve account from
                    its HOPE VI demolition grant or from nonfederal funds.

           2D.      Repay $85,781 to the low-income public housing reserve account from its
                    HOPE VI implementation grant or from nonfederal funds.

           2E.      Repay $29,735 to the low-income public housing reserve account from its
                    Public Housing Capital Fund program. Funds owed for any grants that are
                    closed must be repaid from nonfederal funds. For any grants for which
                    funds were not obligated within two years and spent within an additional
                    two years, repayment should be made to HUD.

           2F.      Repay $85,633 to the low-income public housing reserve account from
                    nonfederal funds representing ineligible indirect costs paid for Housing
                    and Economic Opportunities, Inc., and Glover Plaza, Inc.

           2G.      Provide support for $138,963 in allocated salary and benefit costs or repay
                    any unsupported costs to its Section 8 and Public Housing Capital Fund
                    programs as applicable.

           2H.      Conduct quarterly reviews of its cost allocation plan percentages and make
                    any necessary adjustments to the percentages based on actual costs.




Table of Contents

                                             12
 Finding 3: The Authority Could Not Support Its Use of More Than
            $239,000 in Turnkey III Funds
 The Authority did not properly track its use of funds received from HUD’s Turnkey III program.
 As a result, it could not support that it used more than $239,000 in Turnkey III funds for eligible
 activities. This occurred because Authority management did not implement adequate controls over
 disbursements and because the director of finance was not aware of requirements. By implementing
 procedures that ensure accountability of its Turnkey III funds, the Authority will put its remaining
 Turnkey III mortgages receivable balance of $563,908, as of September 30, 2006, to better use for
 eligible activities.



  The Authority Did Not Properly
  Track the Use of Turnkey III
  Funds



                The Turnkey III program was established to help approved public housing
                residents become homebuyers. The Authority entered into the program in the
                1970s. Initially, it returned funds it received from Turnkey III home sales to
                HUD. HUD permitted the Authority to keep some funds as operating reserves.
                The Authority established an operating reserve account for these funds as required
                by 24 CFR [Code of Federal Regulations] 904.112. In 1992, HUD entered into a
                use agreement with the Authority that authorized the Authority to retain proceeds
                it received from the sale of the Turnkey III units. In 1993, the Authority elected
                to purchase rights to the remaining unsold Turnkey III units and began collecting
                the monthly mortgage payments from the homebuyers until the properties were
                sold or the mortgages were refinanced. The Authority was required to separately
                account for the funds and could only use them for low-income housing purposes.

                From April 1, 2004, through September 30, 2006, the Authority received proceeds
                totaling $239,420 from its Turnkey III program. It deposited the funds into its
                special projects fund. However, it also deposited funds from other sources,
                including funds received from the Governor’s Crime Commission Grant, property
                management revenue, and money market investment income. Once these funds
                were deposited into the special project fund, the Authority considered them
                unrestricted funds and did not separately account for how they were used. This
                violated the Turnkey III use agreement.

                Total expenditures from the special project fund during our review period
                exceeded $2 million. This included some expenditures for low-income housing
                activities but also included expenditures for items such as flowers, annual
                banquets, interest expenses, and utilities. Since the Authority did not track its use
                of Turnkey III funds, it cannot ensure that all of the funds were used for

Table of Contents
                                                 13
            low-income housing activities. Thus, the Authority cannot ensure that it complied
            with the use agreement and could not support its use of $239,420 in Turnkey III
            funds.

            While we only reviewed transactions from April 1, 2004, through September 30,
            2006, the director of finance stated that when she became the director in 2002, she
            continued the practice that was already in place, depositing the Turnkey III funds
            into the special project fund. She stated that she was unaware of the use
            agreement. We determined that the Authority was depositing the Turnkey III
            funds into the special projects fund as early as 1993.

            Since the Authority was unaware of the requirement to track the Turnkey III
            funds and it had historically failed to properly track the funds, it is reasonable to
            conclude that it will continue to deposit the funds into the special project account
            unless it implements procedures that are in compliance with the use agreement.
            By implementing procedures that ensure that it properly tracks its use of Turnkey
            III funds, the Authority will be able to support that future expenditures of program
            funds are tracked in accordance with requirements and are spent only for eligible
            activities. Thus, it will ensure that it puts proceeds from its remaining Turnkey III
            mortgages receivable balance of $563,908, as of September 30, 2006, to better use
            for eligible activities.

 Recommendations



            We recommend that the director of the Office of Public Housing require the
            Authority to

            3A.     Develop and implement procedures which ensure that it complies with its
                    Turnkey III use agreement, including accounting separately for the funds
                    and only using the funds for low-income housing purposes, thereby
                    putting the remaining mortgages receivable balance of $563,908 to better
                    use.

            3B.     Provide support that the $239,420 in Turnkey III funds was used for
                    eligible activities or repay the funds to the public housing reserve account
                    from nonfederal funds.




Table of Contents


                                             14
Finding 4: The Authority Did Not Comply with Internal Revenue
Service Requirements
The Authority did not comply with Internal Revenue Service requirements to determine the
value of the fringe benefits to employees from their use of employer-provided vehicles. The
Authority permitted the executive director and other management staff to use Authority-owned
vehicles to commute daily without accounting for and reporting the taxable employee fringe
benefits. Although the Authority did not have policies governing employer-provided vehicle
use, the director of finance questioned the practice, and management elected not to comply with
the requirements. Because the Authority failed to follow requirements, it subjected the
employees to potential tax consequences.



 The Authority Did Not Follow
 Internal Revenue Service
 Requirements


              Internal Revenue Service Publication 15-B, “Employer’s Tax Guide to Fringe
              Benefits,” states that employers are required to report all fringe benefits they
              provide to employees, including the value of employer-provided vehicles, unless
              the law specifically excludes it. The publication details the methods used to value
              personal use of employer-provided vehicles. Under the cents-per-mile rule,
              employees are required to keep a record of the personal mileage, and the
              employer determines the value by multiplying the personal miles by the Internal
              Revenue Service standard mileage rate, which was 44.5 cents per mile for
              calendar year 2006. The value of the fringe benefit is subject to employment
              taxes and must be reported by the employer on Internal Revenue Service Form
              W-2, Wage and Tax Statement.

              The Authority did not have policies governing employer-provided vehicle use.
              However, it provided vehicles to the executive director and three managers.

              According to the executive director’s current employment agreement, the
              Authority agreed to provide him a vehicle or a monthly automobile allowance.
              The executive director elected to purchase a vehicle, which the Authority agreed
              could be the vehicle of his choice. In April 2005, the Authority purchased a
              vehicle for the executive director’s daily use. However, the Authority did not
              require the executive director to keep track of mileage he incurred for personal
              use. The executive director confirmed that he used the vehicle for both business
              and personal use. Further, the Authority did not record the value of the fringe
              benefit in his income reported on Form W-2. Thus, the Authority understated his
              taxable income.


  Table of Contents
                                               15
          Further, in 2001, the Authority authorized the assistant executive director, Section
          8 program director, and operations director to have full-time use of Authority
          vehicles. The Authority’s justification for providing the vehicles was that the
          employees could be called after regular work hours seven days a week. However,
          Authority management confirmed that only one or two work emergencies have
          occurred since 2001. Again, the Authority did not require the employees to keep
          track of mileage incurred for personal use and did not record the value of the
          fringe benefit as income on their Forms W-2. Thus, their taxable incomes were
          underreported to the Internal Revenue Service.

          We discussed these issues with an Internal Revenue Service tax specialist, who
          confirmed the requirements for the employees to keep track of the mileage and
          the Authority to report the value of the fringe benefit as taxable income to the
          employees. Because the Authority failed to follow requirements, it subjected the
          employees to potential tax consequences.

          We also question whether the three program managers should be provided
          Authority vehicles since they are seldom required to report to work after duty
          hours. Alternatively, the Authority could reimburse them for any work-related
          use of their personal vehicles.

Recommendations



          We recommend that the director of the Office of Public Housing require the
          Authority to

          4A.     Either discontinue allowing staff to use Authority-owned vehicles for
                  daily commuting or comply with Internal Revenue Service requirements
                  to establish the value of the benefits and report the value as taxable
                  income.

          4B.     Develop and implement policies and procedures governing employee use
                  of Authority-owned vehicles.




 Table of Contents


                                           16
                         SCOPE AND METHODOLOGY

Our audit objective was to determine whether the Authority inappropriately used federal funds to
support other programs or entities in violation of requirements. To accomplish our objective, we

   •   Reviewed applicable laws, regulations, and other HUD program requirements, including
       applicable sections of 24 CFR [Code of Federal Regulations], the annual contributions
       contract, Office of Management and Budget Circular A-87, and Internal Revenue Service
       Publication 15-B.

   •   Interviewed HUD and Authority management and staff.

   •   Reviewed various Authority documents, including financial statements, bank statements,
       minutes from board meetings, policies and procedures, accounting books and records,
       and the cost allocation plan.

We estimated that the Authority could put $563,908 to better use by implementing procedures
that ensure accountability of its remaining Turnkey III mortgages receivable (recommendation
3A). Our review showed that the Authority could not support its use of $239,420 in Turnkey III
funds that it received from mortgage payments from April 1, 2004, through September 30, 2006.
We also determined that the Authority had been depositing the mortgage proceeds in an
unrestricted account as early as 1993. Further, the Authority was unaware of the requirements of
its use agreement to track the funds and use them for low-income housing purposes. Therefore,
we concluded that without improved procedures, it would likely continue its previous practices.
Thus, it would continue to fail to properly track or support its use of future receipts of $563,908.

The reported amounts of the recommendation that funds be put to better use do not reflect any
offsetting costs to implement the recommendations.

We conducted our audit from June through December 2006 at the Authority’s offices in
Wilmington, North Carolina. Our audit period was from April 1, 2004, through September 30,
2006. We expanded our audit period as needed to accomplish our objectives.

We performed our review in accordance with generally accepted government auditing standards.




 Table of Contents

                                                17
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •   Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding of resources - Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              •   Reliability of data - Policies and procedures that management has
                  implemented to reasonably ensure that output of data and information is
                  accurate and reliable.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




 Table of Contents
                                               18
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

           •   The Authority did not have adequate policies and procedures to reasonably
               ensure that HUD funds were used in accordance with requirements or that its
               practices complied with HUD and other federal requirements.

           •   The Authority lacked assurance that its various activities were paying their
               fair share of costs because its cost allocation plan and practices did not
               comply with federal requirements.




Table of Contents
                                            19
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


                                                                           Funds to be put
        Recommendation                Ineligible 1/   Unsupported 2/       to better use 3/
                 1B                    $ 109,286
                 1C                       46,266
                 1D                       26,387
                 1E                       24,860
                 1F                        8,930
                 1G                                          $ 509,206
                 2B                       209,537
                 2C                       118,501
                 2D                        85,781
                 2E                        29,735
                 2F                        85,633
                 2G                                             138,963
                 3A                                                                563,908
                 3B                      _______               239,420            _______
                Total                   $ 744,916            $ 887,589          $ 563,908


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Authority implements our
     recommendations, it will avoid ineligible expenditures and will be able to properly


                                            20
Table of Contents
    support its use of funds obtained from its remaining Turnkey III mortgages receivable
    (recommendation 3A).




Table of Contents
                                           21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




 Table of Contents          22
Comment 1




Comment 2




 Table of Contents
                     23
Comment 3




Comment 4




 Table of Contents
                     24
Comment 5




Comment 6




 Table of Contents
                     25
Comment 7




Comment 8




 Table of Contents
                     26
Comment 9




 Table of Contents   27
Table of Contents   28
Comment 10




 Table of Contents
                     29
                       OIG Evaluation of Auditee Comments


Comment 1   We recognize that the balance due the public housing program as of March 31,
            2006, included accrued expenses that were subsequently paid on April 5, 2006.
            We revised the finding appropriately. However, we do not agree with the
            Authority’s comments that the netting of accounts at the time of the conversion
            to a revolving interfund system represents essentially paying back the public
            housing program. The Authority makes similar statements in its response to
            recommendations 1C and 1E. Our reasoning applies to each of the Authority’s
            uses of this or similar statements.

            Netting of accounts receivable and accounts payable between interfund
            accounts should always result in a net balance of zero. However, that does not
            mean that the programs that owed funds actually paid them. In order to
            reimburse the public housing program, the Authority needs to obtain
            reimbursement from the various programs. Further, depositing the reimbursed
            funds into the revolving fund to be used again to pay various expenses does
            not constitute reimbursement to the public housing program. Any
            reimbursements should be deposited into a public housing reserve account, not
            into the revolving fund. Similarly, for any recommendations where the
            Authority claims that it has made, or will make, reimbursements, it should
            provide evidence to the director of the Office of Public Housing that the funds
            were deposited into a public housing reserve account.

            The Authority also makes several statements in its response that it will provide
            support for several matters. The Authority should coordinate with the director
            of the Office of Public Housing for clearance of the recommendations and
            submit any support to that office.

Comment 2   The recommendation pertains to amounts owed by Glover Plaza prior to the
            Authority converting to the revolving fund, after which Glover Plaza had a
            negative balance in the revolving fund. This issue is addressed as part of the
            Authority’s comments to recommendation 1H of the draft report. The
            Authority must provide evidence to the director of the Office of Public
            Housing that the payments received from its affiliate, as well as any other
            reimbursements, were deposited into a public housing reserve account.

Comment 3   In its response to recommendation 1C, as well as in its responses to
            recommendations 1D, and 1E, the Authority claims that the amounts owed
            were for accrued expenses and that no public housing cash was used.




 Table of Contents
                                           30
            While, the balance due to the public housing general fund may have included
            accrued payroll expenses, ultimately the payroll was paid with public housing
            funds. Our review showed that payroll and some other expenses for other
            programs were paid from the public housing general fund. While some of the
            amounts were eventually repaid, it is clear from the Authority’s comments and
            our review that the repayments were not timely and were not fully repaid.
            Thus, the Authority needs to repay the remaining balances to a public housing
            reserve account, or provide evidence that it has already deposited repayments
            into a reserve account. Further, while the Authority claims that no public
            housing cash was used, it also discusses amounts that were repaid,
            recommendation 1B, and amounts that are still owed, recommendations 1D
            and 1F. We question why amounts would be repaid or owed to public housing
            if no public housing cash was used.

Comment 4   In its response to recommendations 1D, 1E, and 1F, the Authority discusses
            cash the various programs had on hand to offset portions or all of the payables.
            For recommendation 1E, the Authority concludes that since Jervay Place has
            sufficient cash to offset the entire payable, there is no balance owed to public
            housing. Having cash to offset payables does not constitute repayment.

            The Authority also discusses requesting a draw down of Capital Funds
            pertaining to recommendation 1D, and HOPE VI funds pertaining to
            recommendation 1F. Requesting a draw down does not constitute a
            repayment. The full amounts for the three recommendations must be
            reimbursed to a public housing reserve account.

Comment 5   According to the general ledger the Authority provided us, the total deficit
            balance was $509,206. We do not know why the Authority’s calculation
            differs. The Authority did not provide any documentation for its calculation.

            The Authority admitted that two of its programs had deficit balances, but states
            that unrestricted funds were used to assist them. According to the general
            ledger we were provided, the only programs that did not have negative
            balances as of September 30, 2006, were the low-income public housing,
            Section 8, and Jervay Place HOPE VI programs. The funds used to pay the
            expenses of the deficit programs would seem to have been provided by one of
            the three programs that had funds available. If unrestricted funds were used,
            we are not aware of the source of these funds and the Authority did not
            provide any support for its claim. We were unable to determine the source of
            the funds during our review, thus we are recommending the Authority
            reconcile the source and provide support to the director of the Office of Public
            Housing.




 Table of Contents
                                           31
             Allocating expenses to the appropriate programs does not constitute
             repayment. The Authority must provide evidence to the director of the Office
             of Public Housing that no HUD funds were used to pay the expenses of the
             deficient programs.

Comment 6    While housing authorities are permitted to use a single revolving fund cash
             account, they are prohibited from withdrawing funds for any project in excess
             of the amount of Contract funds then on deposit for the specific project. The
             Authority clearly violated the requirement. Further, the Authority has
             historically used public housing funds to support its other programs. As such,
             we believe the Authority should maintain its public housing funds in separate
             accounts until such time that it demonstrates that it has adequate controls to
             ensure the funds are used appropriately.

Comment 7    Based on the Authority’s comment and our further discussions with the Office
             of Public Housing, we removed the issues pertaining to the Authority’s misuse
             of Section 8 administrative reserves from the finding.

Comment 8    For recommendations 2C and 2D, the Authority must reimburse a public
             reserve account regardless of whether or not HUD releases the HOPE VI
             funds. If the Authority does not have sufficient HOPE VI funds, repayment
             should be from nonfederal funds.

Comment 9    The Authority’s cost allocation plan clearly states Glover Plaza is responsible
             for two percent of indirect costs. During the review, we discussed the indirect
             costs allocations on several occasions with Authority staff. We were not
             informed of a management agreement that excluded Glover Plaza from paying
             the amounts stated in the indirect cost plan. The Authority should provide
             documentation to the director of the Office of Public Housing showing that the
             management agreement includes provisions stating that fees include indirect
             costs, or repay the $24,752 from nonfederal funds. If the Authority feels
             Glover Plaza should pay an amount different from that stated in its plan, it
             should revise the plan and obtain approval.

Comment 10   We do not agree with the Authority’s determination of questioned costs. With
             the exception of the removal of $31,357 of questioned costs in Finding 1
             regarding use of Section 8 administrative fees, we did not make any additional
             changes to the questioned costs based on the Authority’s comments. However,
             following issuance of the draft report, we revised the questioned costs
             pertaining to recommendation 1H of the draft report (now recommendation
             1G) from $441,935 to $509,206. We discussed this change with the Authority
             prior to preparation of its response to the draft report.




 Table of Contents
                                           32
